Federal Financial
Institutions Examination
Council
Financial Statements as of and for the Years
Ended December 31, 2010 and 2009, and
Independent Auditors’ Report
FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL

TABLE OF CONTENTS


                                                                                       Page

INDEPENDENT AUDITORS’ REPORT                                                            1

FINANCIAL STATEMENTS AS OF AND FOR THE YEARS ENDED
  DECEMBER 31, 2010 AND 2009:

 Balance Sheets                                                                         2

 Statements of Revenues and Expenses and Changes in Cumulative Results of Operations    3

 Statements of Cash Flows                                                               4

 Notes to Financial Statements                                                         5–11

INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND ON
  INTERNAL CONTROL OVER FINANCIAL REPORTING BASED ON AN
  AUDIT OF FINANCIAL STATEMENTS PERFORMED IN ACCORDANCE WITH
  GOVERNMENT AUDITING STANDARDS                                                        12-13
                                                                                  Deloitte & Touche LLP

                                                                                  Suite 800
                                                                                  1750 Tysons Boulevard
                                                                                  McLean, VA 22102-4219
                                                                                  USA

                                                                                  Tel: +1 703 251 1000
                                                                                  Fax: +1 703 251 3400
                                                                                  www.deloitte.com
INDEPENDENT AUDITORS' REPORT

To the Federal Financial Institutions Examination Council:

We have audited the accompanying balance sheets of the Federal Financial Institutions
Examination Council (the “Council”) as of December 31, 2010 and 2009, and the related
statements of revenues and expenses and changes in cumulative results of operations, and cash
flows for the years then ended. These financial statements are the responsibility of the Council’s
management. Our responsibility is to express an opinion on these financial statements based on
our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States. Those standards
require that we plan and perform the audit to obtain reasonable assurance about whether the
financial statements are free of material misstatement. An audit includes consideration of
internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the
effectiveness of the Council’s internal control over financial reporting. Accordingly, we express
no such opinion. An audit also includes examining, on a test basis, evidence supporting the
amounts and disclosures in the financial statements, assessing the accounting principles used and
significant estimates made by management, as well as evaluating the overall financial statement
presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial
position of the Federal Financial Institutions Examination Council as of December 31, 2010 and
2009, and the results of its operations and its cash flows for the years then ended in conformity
with accounting principles generally accepted in the United States of America.

In accordance with Government Auditing Standards, we have also issued our report dated
February 28, 2011, on our consideration of the Council’s internal control over financial reporting
and our tests of its compliance with certain provisions of laws, regulations, contracts, and grant
agreements and other matters. The purpose of that report is to describe the scope of our testing
of internal control over financial reporting and compliance and the results of that testing, and not
to provide an opinion on the internal control over financial reporting or on compliance. That
report is an integral part of an audit performed in accordance with Government Auditing
Standards and should be considered in assessing the results of our audit.




February 28, 2011
FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL

BALANCE SHEETS
AS OF DECEMBER 31, 2010 AND 2009


                                                                     2010               2009
ASSETS
CURRENT ASSETS:
 Cash                                                         $      746,815     $ 1,022,700
 Accounts receivable from member organizations                     1,276,250       1,001,002
 Other accounts receivable — net                                     104,441          90,628

       Total current assets                                        2,127,506          2,114,330

NONCURRENT ASSETS:
 Furniture and equipment — at cost                                    219,484        118,390
 Central Data Repository software — at cost                        19,371,661     18,231,272
 Home Mortgage Disclosure Act software — at cost                    2,783,868      2,344,680
 Less accumulated depreciation                                    (12,704,895)   (10,827,552)

       Net capital assets                                          9,670,118          9,866,790

TOTAL ASSETS                                                  $ 11,797,624       $ 11,981,120

LIABILITIES AND CUMULATIVE RESULTS OF
 OPERATIONS
CURRENT LIABILITIES:
 Accounts payable and accrued liabilities payable to member
  organizations                                               $      839,152     $      981,180
 Other accounts payable and accrued liabilities                      988,059            927,051
 Accrued annual leave                                                 27,746             20,117
 Capital lease payable                                                37,828             16,815
 Deferred revenue                                                  2,746,667          1,856,180

       Total current liabilities                                   4,639,452          3,801,343

LONG-TERM LIABILITIES:
 Capital lease payable                                               142,202             80,576
 Deferred revenue                                                  6,746,128          7,913,219
 Deferred rent                                                         6,605

       Total long-term liabilities                                 6,894,935          7,993,795

       Total liabilities                                          11,534,387         11,795,138
CUMULATIVE RESULTS OF OPERATIONS                                     263,237           185,982

TOTAL LIABILITIES AND CUMULATIVE
 RESULTS OF OPERATIONS                                        $ 11,797,624       $ 11,981,120

See notes to financial statements.

                                                  -2-
FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL

STATEMENTS OF REVENUES AND EXPENSES AND
CHANGES IN CUMULATIVE RESULTS OF OPERATIONS
FOR THE YEARS ENDED DECEMBER 31, 2010 AND 2009


                                                           2010             2009

REVENUES:
 Assessments on member organizations                $      632,344   $      589,988
 Central Data Repository                                 4,452,286        5,741,157
 Home Mortgage Disclosure Act                            3,433,075        3,071,973
 Tuition                                                 2,662,193        2,322,041
 Community Reinvestment Act                              1,024,844        1,013,110
 Uniform Bank Performance Report                           464,633          537,606

       Total revenues                                   12,669,375       13,275,875

EXPENSES:
 Data processing                                         4,529,275        4,370,506
 Professional fees                                       3,635,374        3,674,379
 Salaries and related benefits                           1,739,031        1,468,414
 Depreciation                                            1,877,343        2,943,660
 Rental of office space                                    264,989          247,648
 Administration fees                                       245,000          245,000
 Travel                                                    170,404          156,742
 Books and subscriptions                                     1,656           18,985
 Other seminar expenses                                     30,297           33,343
 Rental and maintenance of office equipment                 48,313           50,967
 Office and other supplies                                  25,033           14,107
 Printing                                                   18,380           19,342
 Postage                                                     1,660            1,960
 Miscellaneous                                               5,365            6,011

       Total expenses                                   12,592,120       13,251,064

RESULTS OF OPERATIONS                                      77,255           24,811

CUMULATIVE RESULTS OF OPERATIONS — Beginning of
 year                                                     185,982          161,171

CUMULATIVE RESULTS OF OPERATIONS — End of year      $     263,237    $     185,982


See notes to financial statements.




                                              -3-
FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL

STATEMENTS OF CASH FLOWS
FOR THE YEARS ENDED DECEMBER 31, 2010 AND 2009


                                                                        2010              2009

CASH FLOWS FROM OPERATING ACTIVITIES:
 Results of operations                                           $      77,255     $      24,811
 Adjustments to reconcile results of operations to net cash
  provided by operating activities:
  Depreciation                                                       1,877,343         2,943,660
  (Increase) decrease in assets:
    Accounts receivable from member organizations                     (275,247)          571,133
    Other accounts receivable                                          (13,812)           14,995
  Increase (decrease) in liabilities:
    Accounts payable and accrued liabilities payable to member
     organizations                                                     (77,379)         (319,538)
    Other accounts payable and accrued liabilities                    (162,453)          642,017
    Accrued annual leave                                                 7,629            (1,891)
    Deferred revenue (current and non-current)                        (276,603)         (199,161)
    Deferred rent                                                        6,605                 -

       Net cash provided by operating activities                     1,163,338         3,676,026

CASH FLOWS FROM INVESTING ACTIVITIES:
 Capital expenditures                                                (1,427,853)       (3,362,003)

CASH FLOWS FROM FINANCING ACTIVITIES:
Capital lease payments                                                 (11,370)                  -

NET (DECREASE) INCREASE IN CASH                                       (275,885)          314,023

CASH BALANCE — Beginning of year                                     1,022,700           708,677

CASH BALANCE — End of year                                       $     746,815     $ 1,022,700


See notes to financial statements.




                                                   -4-
FEDERAL FINANCIAL INSTITUTIONS EXAMINATION COUNCIL

NOTES TO FINANCIAL STATEMENTS
AS OF AND FOR THE YEARS ENDED DECEMBER 31, 2010 AND 2009



1.   ORGANIZATION AND PURPOSE

     The Federal Financial Institutions Examination Council (the “Council”) was established under Title X of
     the Financial Institutions Regulatory and Interest Rate Control Act of 1978. The purpose of the Council
     is to prescribe uniform principles and standards for the federal examination of financial institutions and
     to make recommendations to promote uniformity in the supervision of these financial institutions. The
     five agencies which were represented on the Council during 2010, referred to hereinafter as member
     organizations, are as follows:

         •   Board of Governors of the Federal Reserve System (FRB)
         •   Federal Deposit Insurance Corporation (FDIC)
         •   National Credit Union Administration (NCUA)
         •   Office of the Comptroller of the Currency (OCC)
         •   Office of Thrift Supervision (OTS)

     In accordance with the Financial Services Regulatory Relief Act of 2006, a representative state regulator
     was added as a full voting member of the Council in October 2006.

     The Council was given additional statutory responsibilities by Section 340 of the Housing and
     Community Development Act of 1980, Public Law 96-399. Among these responsibilities are the
     implementation of a system to facilitate public access to data that depository institutions must disclose
     under the Home Mortgage Disclosure Act of 1975 (HMDA) and the aggregation of annual HMDA data,
     by census tract, for each metropolitan statistical area.

     On July 21, 2010, the Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010 (Dodd-
     Frank Act) was signed into law. This legislation substitutes the director of the Consumer Financial
     Protection Bureau for the director of the Office of Thrift Supervision as a member of the Council
     effective July 21, 2011.

     The Council’s financial statements do not include financial data for the Council’s Appraisal
     Subcommittee (the Subcommittee). The Subcommittee was created pursuant to Public Law 101–73,
     Title XI of the Financial Institutions Reform, Recovery, and Enforcement Act of 1989. Although it is a
     subcommittee of the Council, the Appraisal Subcommittee maintains separate financial records and
     administrative processes. The Council is not responsible for any debts incurred by the Subcommittee,
     nor are Subcommittee funds available for use by the Council.

2.   SIGNIFICANT ACCOUNTING POLICIES

     The Council prepares its financial statements in accordance with accounting principles generally
     accepted in the United States of America (GAAP).




                                                     -5-
Revenues — Assessments are made on member organizations to fund the Council’s operations based on
expected cash needs. Amounts over- or under- assessed due to differences between actual and expected
cash needs are presented in the “Cumulative Results of Operations” line item during the year and then
are used to offset or increase the next year’s assessment. Deficits in “Cumulative Results of Operations”
can be recouped in the following year’s assessments.

The Council provides seminars in the Washington, D.C., area and at locations throughout the country for
member organizations and other agencies. The Council also coordinates the production and distribution
of the Uniform Bank Performance Reports (UBPR) through the FDIC. Tuition and UBPR revenue is
adjusted at year-end to match expenses incurred as a result of providing education classes and UBPR
services. For differences between revenues and expenses, member agencies are assessed an additional
amount or credited a refund based on each member’s proportional cost for the Examiner Education and
UBPR budget. The Council also recognizes revenue from member agencies for expenses incurred
related to the Community Reinvestment Act.

Capital Assets — Furniture and equipment is recorded at cost less accumulated depreciation.
Depreciation is calculated on a straight-line basis over the estimated useful lives of the assets, which
range from four to ten years. Upon the sale or other disposition of a depreciable asset, the cost and
related accumulated depreciation are removed and any gain or loss is recognized. The Central Data
Repository (CDR) and the HMDA rewrite, internally developed software projects, are recorded at cost
as required by the Internal Use Software Topic of Financial Accounting Standards Board (FASB)
Accounting Standards Codification.

Deferred Revenue — Deferred revenue includes cash collected and accounts receivable primarily
related to the CDR and HMDA.

Deferred Rent — The lease for office and classroom space contains scheduled rent increases over the
term of the lease. As required by the Leases Topic of the FASB Accounting Standards Codification, rent
abatements and scheduled rent increases must be considered in determining the annual rent expense to
be recognized. The deferred rent represents the difference between the actual lease payments and the
rent expense recognized.

Estimates — The preparation of financial statements in conformity with GAAP requires management to
make estimates and assumptions that affect the reported amounts of assets and liabilities and the
disclosure of contingent assets and liabilities at the date of the financial statements and the reported
amounts of revenues and expenses during the reporting period. Actual results could differ from those
estimates.

Allowance for Doubtful Accounts — Accounts receivable for non-members are shown net of the
allowance for doubtful accounts. Accounts receivable considered uncollectible are charged against the
allowance account in the year they are deemed uncollectible. The allowance for doubtful accounts is
adjusted monthly, based upon a review of outstanding receivables.




                                                -6-
3.   TRANSACTIONS WITH MEMBER ORGANIZATIONS

                                                                                  2010             2009

       Accounts receivable:
        Board of Governors of the Federal Reserve System                      $ 290,047        $ 209,922
        Federal Deposit Insurance Corporation                                   467,726          439,609
        National Credit Union Administration                                     47,501           48,593
        Office of the Comptroller of the Currency                               416,572          244,883
        Office of Thrift Supervision                                             54,404           57,995

                                                                              $ 1,276,250      $ 1,001,002

       Accounts payable and accrued liabilities:
        Board of Governors of the Federal Reserve System                      $ 579,792        $ 618,861
        Federal Deposit Insurance Corporation                                   126,265          247,870
        National Credit Union Administration                                      7,624           20,877
        Office of the Comptroller of the Currency                               124,321           72,103
        Office of Thrift Supervision                                              1,150           21,469

                                                                              $ 839,152        $ 981,180

       Operations:
        Assessments to member organizations for operating expenses            $ 632,344        $ 589,988
        FRB provided administrative support services to the Council
         at an expense of                                                         245,000         245,000
        Member organizations provide data processing services to the
         Council at an expense of                                               4,529,275        4,370,506

     The Council does not directly employ personnel, but rather member organizations detail personnel to
     support Council operations. These personnel are paid through the payroll systems of member
     organizations. Salaries and fringe benefits, including retirement benefit plan contributions, are
     reimbursed to these organizations. The Council does not have any post-retirement or post-employment
     benefit liabilities since Council personnel are included in the plans of the member organizations.

     Member organizations are not reimbursed for the costs of personnel who serve as Council members and
     on the various task forces and committees of the Council. The value of these contributed services is not
     included in the accompanying financial statements.

4.   CENTRAL DATA REPOSITORY SOFTWARE

     In 2003, the Council entered into an agreement with UNISYS to enhance the methods and systems used
     to collect, validate, process, and distribute Call Report information, and to store this information in a
     Central Data Repository (CDR).

     The CDR was placed into service in October 2005. At that time, the Council began depreciating the
     CDR project on the straight-line basis over its estimated useful life of 63 months. In 2009, the Council
     reevaluated the useful life of CDR and decided to extend the estimated useful life by an additional
     36 months based on enhanced functionality of the software. The Council records depreciation expenses

                                                     -7-
and recognizes the same amount of revenue. The value of the CDR asset as of December 31, 2010 and
2009, includes the fully accrued and paid cost.

                                                                       2010             2009

  Capital asset CDR:
   Beginning balance                                              $ 18,231,272     $ 14,140,655
   Software placed in use during the year                            1,140,389        4,090,617

  Total asset                                                     $ 19,371,661     $ 18,231,272

  Accounts payable and accrued liabilities related to CDR:
   Payable to UNISYS for the CDR project                          $    865,630     $    729,166


 Revenues — Central Data Repository — The Council is funding the project by billing the three
 participating Council member organizations (FRB, FDIC, and OCC). Funding for the years ended
 December 31, 2010 and 2009, is as follows.

  Deferred Revenue                                                     2010             2009

  Beginning balance                                                $ 7,424,718      $ 8,173,666
  Additions                                                          1,140,389        2,194,713
  Less revenue recognized                                           (1,856,180)      (2,943,660)

  Ending balance                                                   $ 6,708,927      $ 7,424,719

  Current portion deferred revenue                                 $ 2,236,309      $ 1,856,180
  Long-term deferred revenue                                         4,472,618        5,568,539

  Total Deferred Revenue                                           $ 6,708,927      $ 7,424,719


  Total CDR Revenue
  Revenue                                                          $ 1,856,180      $ 2,943,660
  Hosting and maintenance revenue                                    2,596,106        2,797,497
  Total CDR Revenue                                                $ 4,452,286      $ 5,741,157

  Professional Fees
  Hosting and maintenance fees for the CDR project                 $ 2,596,106      $ 2,797,497

  Depreciation

  Depreciation for the CDR project                                 $ 1,856,180      $ 2,943,660

  Average monthly depreciation                                     $   154,682      $   245,305




                                              -8-
5.   HOME MORTGAGE DISCLOSURE ACT SOFTWARE

     The Council entered into an agreement with FRB to maintain and support the HMDA processing
     system. In 2007, the Council began a rewrite of the entire HMDA processing system. The HMDA
     rewrite will enhance the processing system. The cost of the software in process is $2,783,868 and
     $2,344,680 as of December 31, 2010 and 2009, respectively. The financial activity associated with the
     processing system for the years ended December 31, 2010 and 2009, is as follows.

                                                                                  2010             2009

       Deferred Revenue

       Beginning balance                                                    $ 2,344,680      $ 1,544,895
       Additions                                                                439,188          799,785
       Less revenue recognized                                                        0                0

       Ending balance                                                       $ 2,783,868      $ 2,344,680

       Current portion deferred revenue                                     $ 556,774        $            0
       Long-term deferred revenue                                               2,227,094        2,344,680

       Total Deferred Revenue                                               $ 2,783,868      $ 2,344,680


       Revenue
        The Council recognized the following revenue from
         member organizations for the production and distribution
         of reports under the HMDA                                          $ 2,537,870      $ 2,234,514
        The Council recognized the following revenue from the
         Department of Housing and Urban Development’s
         participation in the HMDA project                                       588,421          559,151
        The Council recognized the following revenue from the
         Mortgage Insurance Companies of America for performing
         HMDA-related work                                                       306,784          278,308

       Total HMDA                                                           $ 3,433,075      $ 3,071,973

       Depreciation

       Depreciation for the HMDA Rewrite project                            $            0   $            0

       Average monthly depreciation                                         $            0   $            0




                                                    -9-
6.   OPERATING LEASES

     The FRB, on behalf of the Council, entered into two operating leases at market value to secure office
     and classroom space. One lease terminated in 2009 and one began in January 2010 with the FDIC.

       Years Ending
       December 31                                                                              Amount

       2011                                                                                   $ 261,598
       2012                                                                                     264,900
       2013                                                                                     268,292
       2014                                                                                     271,772

       Total minimum lease payments                                                           $ 1,066,562


     Rental expenses under these operating leases were $264,989 and $247,648 as of December 31, 2010 and
     2009, respectively.

7.   CAPITAL LEASES

     In December 2009 and November 2010, the Council entered into capital leases for printing equipment.
     Furniture and equipment includes $198,485 for the capital leases. Contingent rentals for excess usage
     of the printing equipment amounted to $11,049 in 2010.

     The future minimum lease payments required under the capital leases and the present value of the net
     minimum lease payments as of December 31, 2010, are as follows:

       Years Ending
       December 31                                                                               Amount
       2011                                                                                       59,089
       2012                                                                                       59,089
       2013                                                                                       59,089
       2014                                                                                       59,089
       2015                                                                                       31,737

              Total minimum lease payments                                                       268,093

       Less amount representing maintenance                                                       (72,789)

              Net minimum lease payments                                                         195,304

       Less amount representing interest                                                          (15,274)

              Net minimum lease payments                                                         180,030

       Less current maturities of capital lease payments                                          (37,828)

       Long-term capital lease obligations                                                      $ 142,202



                                                    - 10 -
8.   SUBSEQUENT EVENTS

     There were no subsequent events that require adjustments to or disclosures in the financial statements as
     of December 31, 2010. Subsequent events were evaluated through February 28, 2011, which is the date
     the financial statements were available to be issued.

                                                 ******




                                                    - 11 -
                                                                                     Deloitte & Touche LLP

                                                                                     Suite 800
                                                                                     1750 Tysons Boulevard
                                                                                     McLean, VA 22102-4219
                                                                                     USA

                                                                                     Tel: +1 703 251 1000
                                                                                     Fax: +1 703 251 3400
                                                                                     www.deloitte.com




INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER
FINANCIAL REPORTING AND ON COMPLIANCE AND OTHER MATTERS
BASED ON AN AUDIT OF FINANCIAL STATEMENTS PERFORMED IN
ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS


To the Federal Financial Institutions Examination Council:

We have audited the financial statements of the Federal Financial Institutions Examination
Council (the “Council”) as of and for the year ended December 31, 2010, and have issued our
report thereon dated February 28, 2011. We conducted our audit in accordance with auditing
standards generally accepted in the United States of America and the standards applicable to
financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States.

Internal Control over Financial Reporting

In planning and performing our audit, we considered the Council’s internal control over
financial reporting as a basis for designing our auditing procedures for the purpose of
expressing our opinion on the financial statements, but not for the purpose of expressing an
opinion on the effectiveness of the Council’s internal control over financial reporting.
Accordingly, we do not express an opinion on the effectiveness of the Council’s internal
control over financial reporting.

A control deficiency exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent or detect misstatements on a timely basis. A significant deficiency is a control
deficiency, or combination of control deficiencies, that adversely affects the entity's ability to
initiate, authorize, record, process, or report financial data reliably in accordance with
generally accepted accounting principles such that there is more than a remote likelihood that
a misstatement of the Council’s financial statements that is more than inconsequential will not
be prevented or detected by the Council’s internal control.
A material weakness is a significant deficiency, or combination of significant deficiencies,
that results in more than a remote likelihood that a material misstatement of the financial
statements will not be prevented or detected by the Council’s internal control.

Our consideration of internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and would not necessarily identify all
deficiencies in internal control that might be significant deficiencies or material weaknesses.
We did not identify any deficiencies in internal control over financial reporting that we
consider to be material weaknesses, as defined above.

Compliance and Other Matters

As part of obtaining reasonable assurance about whether the Council’s financial statements
are free of material misstatement, we performed tests of its compliance with certain provisions
of laws, regulations, contracts, and grant agreements, noncompliance with which could have a
direct and material effect on the determination of financial statement amounts. However,
providing an opinion on compliance with those provisions was not an objective of our audit,
and accordingly, we do not express such an opinion. The results of our tests disclosed no
instances of noncompliance or other matters that are required to be reported under
Government Auditing Standards.

Distribution

This report is intended solely for the information and use of the Council, management, and
others within the organization, and the Office of Inspector General, and the United States
Congress, and is not intended to be and should not be used by anyone other than these
specified parties.




February 28, 2011
